OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/KENYA’S
COMPLIANCE WITH FINANCIAL
AUDIT REQUIREMENTS
REGARDING FOREIGN
RECIPIENTS
AUDIT REPORT NO. 4-615-06-011-P
July 31, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General

July 31, 2006

MEMORANDUM

TO:                  USAID/Kenya Mission Director, Stephen Haykin

FROM:                Acting Regional Inspector General/Pretoria, Matthew Rathgeber /s/

SUBJECT:             Audit of USAID/Kenya’s Compliance with Financial Audit Requirements
                     Regarding Foreign Recipients (Report No. 4-615-06-011-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II.

The report has seven recommendations to help USAID/Kenya improve its financial audit
program with regard to foreign recipients. In response to the draft report, the Mission
provided corrective action plans for Recommendation Nos. 1, 4 and 6.                For
Recommendation No. 3, USAID/Kenya has amended its Mission Order regarding Audit
Management, dated May 31, 2006. For Recommendation No. 7, the Mission agreed to
submit all host country contract audits to RIG/Pretoria. Management decision has been
reached for Recommendation Nos. 1, 3, 4, 6 and 7. Please provide the Office of Audit,
Performance, and Compliance Division with the necessary documentation to achieve
final action on the recommendations.

Recommendation Nos. 2 and 5 remain open without management decision until the
Mission provides a target date for completion of action and the Mission obtains and
submits audit reports identified in Appendices III and IV to RIG/Pretoria.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
0027, Pretoria, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/Kenya ensure that planned financial audits
of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 4

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 4

     Standard Statement of Work
     Not Used in Every Audit .............................................................................................. 6

Did USAID/Kenya ensure that annual audit plans
included all recipients from its award inventory
that required a financial audit? .......................................................................................... 7

     Awards Requiring Closeout Audits Need
     to be Included in Audit Plans....................................................................................... 8

     Host Country Contracts Procedures
     Need to be Included in Mission Order......................................................................... 9

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14

Appendix III – List of Delinquent Audits as of December 31, 2005 .......................... 19

Appendix IV – List of Expired Awards Requiring Closeout Audits .......................... 20
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit to determine whether
USAID/Kenya effectively managed its financial audit program in accordance with USAID
policies and procedures for fiscal years 2003, 2004, and 2005. (See page 2.)

USAID/Kenya did not effectively manage its financial audit program during the period
covered by the audit. Specifically, USAID/Kenya did not ensure that planned audits of
recipients were performed in a timely manner, delinquent audits were followed up on and
completed, or standard statements of work were used. To help correct and strengthen
these problem areas, we recommended that USAID/Kenya 1) develop and implement an
audit tracking system to better monitor and ensure timely submission of planned audits,
2) complete all identified delinquent audits, and 3) develop a system to ensure that
standard statements of work are included in future audit agreements. (See pages 4 - 7.)

In addition, although USAID/Kenya prepared award inventories and annual audit plans
for fiscal years 2003-2005, the inventories and plans were incomplete. Specifically, the
plans omitted required closeout audits for 16 expired awards. The amount of USAID
funding included in those awards totaled $15.3 million. We recommended that
USAID/Kenya 1) amend its Mission Order dealing with recipient audits to ensure that
expiring awards requiring closeout audits are included in future audit plans, 2) complete
all required closeout audits, 3) amend Mission procedures regarding audits of host
country contracts, and 4) have required closeout audits performed for two expired host
country contracts. (See pages 7 - 10.)

In response to the seven recommendations in the final report, the Mission provided
corrective action plans for Recommendation Nos. 1, 4 and 6. For Recommendation No.
3, USAID/Kenya has amended its Mission Order regarding Audit Management, dated
May 31, 2006. For Recommendation No. 7, the Mission agreed to submit all host
country contract audits to RIG/Pretoria. Management decision has been reached for
Recommendation Nos. 1, 3, 4, 6 and 7. Recommendation Nos. 2 and 5 remain open
without management decision until the Mission provides a target date for completion of
action and the Mission obtains and submits audit reports identified in Appendices III and
IV to RIG/Pretoria. (See page 11.)




                                                                                       1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directives System (ADS) 591. This section of the ADS requires that
USAID missions, in consultation with the cognizant Regional Inspector General (RIG),
ensure that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any Mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for recipients expending more than $500,000 throughout the life of an
award. Incurred cost audits must be performed annually of all foreign for-profit
organizations performing under direct awards or cost reimbursable host country
contracts and subcontracts. 1 To ensure that such audits are performed in a timely and
acceptable manner, Missions are required to develop annual audit plans which are
populated from inventories maintained by the Missions of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country owned local currency and activities in nonpresence
countries for use in determining audit requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG office and contracted by recipients using a standard statement of work. On
occasion, USAID missions may contract directly with an audit firm to conduct financial
audits of foreign recipients or locally-incurred costs of U.S.-based recipients. Audits of
USAID recipients are required to be performed in accordance with U.S. Government
Auditing Standards as well as the OIG’s Guidelines for Financial Audits Contracted by
Foreign Recipients. Missions must ensure that such audit reports are submitted to the
cognizant RIG for review and issuance no later than nine months following the end of the
audited period.

USAID/Kenya is one of the USAID missions in the Eastern and Southern Africa region
with a large number of recipients. In fiscal year 2005, the Mission had 55 non-U.S.-
based recipients. During fiscal years 2003-2005, USAID/Kenya reported budget
authorizations totaling $243.2 million for programs in:

     •   HIV/AIDS, Population, and Health.
     •   Natural Resources Management.
     •   Democracy and Governance.
     •   Increased Rural Household Incomes.
     •   Basic Education.



1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office.
                                                                                                         2
AUDIT OBJECTIVES
The Regional Inspector General/Pretoria (RIG/Pretoria) performed this audit of the
Mission’s compliance with financial audit requirements regarding foreign recipients
because RIG/Pretoria’s experience is that USAID missions in eastern and southern
Africa have generally not been complying with Automated Directives System (ADS) 591
in terms of ensuring that required financial audits of foreign recipients are conducted in a
timely and acceptable manner. To determine USAID/Kenya’s compliance with USAID
rules and regulations regarding financial audits of its foreign recipients, the audit was
performed to answer the following questions:

Objective No. 1: Did USAID/Kenya ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/Kenya ensure that annual audit plans included all recipients
from their award inventory that required a financial audit?

Refer to Appendix I for detail of the audit scope and methodology.




                                                                                          3
AUDIT FINDINGS
Did USAID/Kenya ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with
USAID rules and regulations?
USAID/Kenya did not ensure that all planned financial audits of foreign recipients 2 were
performed and submitted in accordance with USAID rules and regulations.

During the last three years, USAID/Kenya has made a great deal of progress towards
improving its recipient financial audit program. USAID/Kenya has planned for and
submitted its audit inventories and audit plans to RIG/Pretoria for fiscal years 2003 -
2005. Since October 1, 2003, RIG/Pretoria has issued four financial audit reports of
USAID/Kenya recipients covering $2.7 million in expenditures of USAID funds. Those
audit reports included recommendations that addressed $1.2 million in questioned costs,
16 internal control weaknesses, and 8 instances of material noncompliance with
applicable laws and regulations.

There were several areas identified during our audit in which USAID/Kenya could
improve its recipient financial audit program including timeliness, follow-up on delinquent
audits, and use of a standard statement of work.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency policy, USAID missions must submit audit reports of
foreign recipients to the cognizant Regional Inspector General (RIG) no later than nine
months after the end of the audited period. Only 4 of 21 audits in USAID/Kenya’s audit
plans for fiscal years 2003 to 2005 were submitted to RIG/Pretoria within the required
timeframe. This occurred because USAID/Kenya had not developed an effective system
to track and follow up on planned audits. Audits that are not completed in a timely
manner reduce USAID’s accountability over funds awarded to recipients.

Automated Directives System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the
timeframe within which recipients must submit final audit reports to the cognizant USAID
mission, which, in turn, will forward them to the RIG for review and issuance. According
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.




2
 For the purpose of this audit, foreign recipients include non-U.S.-based grantees and contractors who were
awarded grants, contracts or cooperative agreements.
                                                                                                         4
USAID/Kenya’s annual audit plans prepared for fiscal years 2003, 2004, and 2005
included 21 distinct planned financial audits of 13 different recipients. The breakdown of
the 21 audits is presented in Table 1 below.


                                        Table 1
              Recipient Audits in Annual Plans for Fiscal Years 2003-2005

                  Number of recipients           # of annual        Totals
                                                audits in plans
                            3                          3               9
                            2                          2               4
                            8                          1               8
                           13                                         21


Of the 21 planned audits, only 4 (19%) were submitted to RIG/Pretoria for review and
issuance on or before the required due date. On average, audit reports were submitted
140 days (approximately five months) after they were due.

The lack of timeliness was caused by several factors. One of the principal factors was
that the Mission’s tracking system to ensure that the planned audits were performed and
submitted within the required timeframe needed enhancement to be effective. As a
result, not only were the planned audits not submitted in a timely manner, but many were
not submitted at all. For example, only 8 of the 21 audits included in the Mission’s audit
plans for fiscal years 2003, 2004, and 2005 had been submitted to RIG/Pretoria as of
December 31, 2005. The remaining 13 audits (listed in Appendix III) had either not been
performed, or, if performed, had not been submitted to RIG/Pretoria.

Delayed performance and submission of audit reports reduces USAID’s accountability
over funds awarded to recipients. This also increases the risk that recipients’ financial
records are no longer available for audit, or that their offices have ceased operations
making the determination and recovery of potential questioned costs difficult or
impossible. Even when records do exist, or the recipient is still in operation, untimely
audit reports lose their usefulness because management (USAID or recipient) cannot,
based on the reports, implement corrective actions in a timely manner to prevent
potential fraud, waste and abuse. Total estimated expenditures not audited on a timely
basis amounted to over $11.5 million, while the estimated expenditures of planned
audits not submitted at all amounted to over $9.4 million.

For the mission to be able to submit timely audit reports to RIG/Pretoria, it must have an
effective system to monitor the status of planned audits and dedicated personnel to
provide interventions when targeted milestones are not being met. Therefore, we are
making the following recommendations:

   Recommendation No. 1: We recommend that USAID/Kenya develop and
   implement an audit tracking system to monitor the recipient financial audit
   process to ensure timely submission of reports to RIG/Pretoria. This system
   should, at a minimum, include controls to document that:

   •   Appropriate timing targets and milestones are set for each audit in the
       Mission’s current audit plan.
                                                                                        5
   •   Audit instructions are sent to recipients prior to the recipient’s fiscal year end
       requesting them to initiate the procurement for the audit.
   •   Periodic follow-up is performed to determine the implementation status of all
       planned audits.
   •   Corrective actions are taken and documented for audits that are not
       progressing as planned.

   Recommendation No. 2: We recommend that USAID/Kenya obtain and submit
   audit reports for all recipients with delinquent audits.


Standard Statement of Work
Not Used in Every Audit
Summary: Agency policy requires that audit agreements between recipients and
independent auditors contain a standard statement of work (SOW) that incorporates all
the requirements of the OIG Guidelines. Not all of the financial audits of USAID/Kenya’s
recipients contained a standard SOW that was reviewed and approved by the Mission.
This occurred because USAID/Kenya did not have a system to ensure that all audit
agreements incorporated standard SOWs. The lack of a standard SOW has resulted in
many audits being rejected by RIG/Pretoria due to lack of compliance with applicable
auditing standards and guidelines.

According to the OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients
(Guidelines), a mandatory reference in ADS 591, USAID missions must ensure that
audit agreements between USAID recipients and independent auditors include a
standard statement of work (SOW) containing all of the requirements of the Guidelines.
To ensure that this requirement is complied with, recipients must send all prospective
audit agreements to the cognizant USAID mission for approval prior to finalization, as
stated in paragraph 1.14 of the Guidelines.

Experience has shown that independent audit firms conducting USAID recipient audits
without a standard SOW typically perform “statutory” audit work in accordance with local
standards. Such audits do not address the unique fieldwork and reporting requirements
of USAID audits relating to such areas as testing expenditures for eligibility, allocability,
and compliance with U.S. laws and regulations. Financial audit requirements for USAID
recipients differ substantially from statutory audit requirements within Kenya.
Consequently, audits that are conducted without a Mission-approved agreement
containing the standard SOW, which refers to the audit requirements in the OIG
Guidelines, are less likely to be performed in accordance with U.S. Government Auditing
Standards and/or the OIG Guidelines. This was reflected in the large percentage of
recipient audit reports that RIG/Pretoria rejected due to lack of conformity with those
standards and guidelines. Of the eight reports submitted to RIG/Pretoria, four (50
percent) were initially rejected due to lack of compliance with applicable standards and
guidelines.

We judgmentally selected six submitted audits to determine whether the Mission
reviewed and approved the audit agreements between recipients and auditors. Of the
six audits reviewed:



                                                                                            6
   •   The Mission did not review and approve the SOW prior to the commencement of
       five of the audits.
   •   The Mission did not ensure that the audit agreement between the recipient and
       the auditors contained a Mission-approved standard SOW for any of the six
       audits.

A number of recipient audits were not performed under agreements which included the
standard SOW because USAID/Kenya did not have a system in place to ensure that all
audit agreements were reviewed and approved by the Mission prior to the
commencement of the audits. Therefore, the Mission could not ensure that the standard
SOW was incorporated into those audit agreements.

The review and approval of prospective audit agreements, and the inclusion of a
standard SOW in those agreements which references specific USAID audit
requirements, will help prevent audits from being performed that do not comply with U.S.
Government Auditing Standards and/or the OIG Guidelines. Once incorporated into the
audit agreement, the standard SOW becomes binding and should compel the audit firms
to comply with necessary USAID audit requirements. Therefore, we are making the
following recommendation:

   Recommendation No. 3: We recommend that USAID/Kenya develop and
   implement a system to verify and document that the Mission reviews, approves
   and maintains a copy of an audit agreement containing a standard statement of
   work that incorporates USAID’s audit requirements for every recipient audit.


Did USAID/Kenya ensure that annual audit plans included all
recipients from its award inventory that required a financial
audit?
USAID/Kenya did not ensure that annual audit plans included all recipients from its
award inventories that required a financial audit.

As required by ADS 591.3.4.2, USAID/Kenya developed award inventories for fiscal
years 2003, 2004, and 2005 which included the required information for each award,
including contractor/grantee name, type of organization, award number, amount in U.S.
dollars, start/completion dates, prior audits and period covered, receipt date for required
audits, dates for planned audits, and reason(s) for not including an award in the annual
audit plan. The Mission also developed an annual audit plan for each of those fiscal
years which included 21 distinct audits of foreign recipients receiving awards listed in
those inventories.

Although USAID/Kenya prepared the award inventories and related audit plans as
required, not all awards that required audits were included in the audit plans.




                                                                                         7
Awards Requiring Closeout Audits
Need To Be Included In Audit Plans
Summary: Agency policy requires that all awards in excess of $500,000 be subject to a
final closeout audit. The policy also states that annual incurred cost audits must be
accepted as fulfilling closeout audit requirements. USAID/Kenya’s annual audit plans
omitted 16 expired direct awards that required closeout audits. This occurred because
Mission officials were unaware that closeout audits were required. As a result, $15.3
million of USAID funds that should have been audited remains unaudited.

Automated Directives System (ADS) 591.3.3.2 states that Contract Information Bulletin
(CIB) 90-12 requires “all awards in excess of $500,000 be subject to a final closeout
audit.” This section of the ADS also states that annual audits, performed in accordance
with the Guidelines for Financial Audits Contracted by Foreign Recipients must be
accepted as fulfilling the close-out audit requirements for foreign nonprofit organizations.

The intent of CIB 90-12 is to ensure that awards that do not exceed the $300,000
threshold for an annual audit, but expend significant amounts on a cumulative basis, are
audited to ensure proper closeout of the award. The Mission’s award inventories
included columns with labels such as “Prior Audits & Dates Covered” and “Reason not in
Audit Plan.” The data from these columns provided information as to the most recent
annual audit prior to the recipient’s award completion date. The information from the
Mission’s award inventories was used to determine whether a close-out audit was
required for a given recipient.

USAID/Kenya’s award inventories for fiscal years 2003–2005 included 16 recipients with
expired direct awards over the $500,000 threshold, which were not included in the
Mission’s respective annual audit plans. According to the Mission’s award inventories
for fiscal years 2003–2005, and audit plans for fiscal years 2003–2005, these expired
awards had no recent annual audits prior to the recipient’s award completion date.
Consequently, required closeout audits were not conducted for those awards. A list of
the 16 awards requiring closeout audits is included as Appendix IV in this report. The
following table presents the aging of the unaudited expired awards as of December 31,
2005. As shown in the table, the majority of these awards expired more than two years
ago.

                                       Table 2
                   Aging of Expired Awards Requiring Closeout Audits

              0-1 yr.           2-3 yrs.           4-5 yrs.           Total
                4                  9                  3                16

Mission officials did not include these expired awards in annual audit plans because they
were unaware of the policy regarding closeout audits. The reason stated in the
Mission’s award inventories for not including such awards in the annual audit plans was
that the annual expenditures were less than $300,000. In addition, there was no recent
audit performed prior to the award completion date. Also, USAID/Kenya’s Mission Order
dated May 1, 2002, which addresses recipient financial audits, did not include any
procedures regarding the planning or performance of closeout audits of awards
exceeding $500,000.

                                                                                          8
As a result, 16 expired direct awards that should have received closeout audits remain
unaudited. The amount of USAID funding included in those awards totaled $15.3
million.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subject to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations. Finally, because they were not included in
the Mission’s audit plans during the period they were due; such audits would not be
performed within the required timeframe. We are, therefore, making the following
recommendations:

    Recommendation No. 4: We recommend that USAID/Kenya amend its Mission
    Order dated May 1, 2002 to document that closeout audits of expiring awards in
    excess of $500,000 are included in future audit plans and performed as required.

    Recommendation No. 5: We recommend that USAID/Kenya obtain and submit
    audit reports for all expired awards requiring closeout audits.


Host Country Contracts Audit Procedures
Need To Be Included in Mission Order
Summary: Agency policy requires missions to maintain an inventory of all awards from
which annual audit plans may be developed. Agency policy also dictates that host
country contracts 3 are subject to the same USAID audit requirements as direct
contracts. Two host country contracts requiring financial audit did not receive timely
audits. This occurred because host country contract audit procedures were not in
USAID/Kenya’s Mission Order. As a result, two contracting entities had to have financial
audits covering several years that could affect the Mission’s oversight of USAID funds.

ADS 591.3.4.2 requires missions to “maintain an inventory of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country-owned local currency, and activities in nonpresence
countries for use in determining audit requirements.” Country Contracting Handbook
section 3.8 states that an audit of non-U.S.-based firms shall be a cost-incurred, financial
audit performed by the principal audit agency to the host country or an independent audit
agency acceptable to the USAID Inspector General and as set forth in the Strategic
Objective Agreement (SOAG) or a SOAG Implementation Letter. It further adds that the
Guidelines should be followed in the selection of auditors and that the auditors should
observe the Guidelines in planning, conducting, and reporting the results of the audit.

3
  ADS Glossary defines Host Country Contracting as “A means of program implementation in which USAID
finances, but is not a party to, contractual arrangements between the host country and the supplier of goods
and/or services.” ADS 301.5.1a states that when USAID decides to use host country contracting procedures
– it acts as financier and not a contracting party, reserving certain rights of approval and activity monitoring.
                                                                                                               9
Moreover, section 3.9 of the Country Contracting Handbook specifically states that “Final
payment to the contractor is withheld until the contractor provides evidence that it has
met all of its obligations under the contract and all required certifications (including
acceptance of the work by the Contracting Agency) have been executed and the
contract has been audited, as provided above. The USAID Activity Manager will be
notified of contract closeout and contract files will be maintained in storage at least three
years from the final disbursement under the SOAG.” (emphasis added)

RIG/Pretoria obtained a list of USAID-funded host country contracts from USAID/Kenya
that were active during the fiscal years 2003-2005. Two host country contracts had
expenditures over $300,000 and required financial audits that had not been submitted to
RIG/Pretoria. Timely financial audits of host country contracts could improve the
Mission’s oversight of USAID funds. For example, a host country contract had a
financial audit that covered November 1, 2000 to June 30, 2004. The results of the
financial audit (Report No. 4-615-06-001-R) showed $2,547 in questioned ineligible
costs and $957,435 in questioned cost sharing contributions ($278,044.ineligible and
$679,391 unsupported). The Mission could have taken appropriate steps to reduce the
amount of questioned costs had financial audits on this host country contract been done
on a timely manner.

This occurred because USAID/Kenya’s Mission Order dated May 1, 2002 did not include
host country contract procedures for financial audits.

To prevent the omission or delay of host country contract financial audits, we are making
the following recommendations:

   Recommendation No. 6: We recommend that USAID/Kenya amend its Mission
   Order dated May 1, 2002 to provide procedures for including host country
   contracts in award inventories and annual audit plans, as appropriate.

   Recommendation No. 7: We recommend that USAID/Kenya obtain and submit
   audits for the two host country contracts that expended in excess of $300,000 in
   one fiscal year as required in Section 3.9 of the Country Contracting Handbook.




                                                                                          10
EVALUATION OF
MANAGEMENT COMMENTS
The Mission provided its written comments on May 22, 2006 and additional clarification
on June 26, 2006 to our draft audit report which contained eight recommendations.

Evaluation of additional information included in the Mission’s revised comments justified
the removal of Recommendation No. 6 from the draft report issued on April 19, 2006.
The finding stated that host country contracts were not included in the Mission’s audit
inventories. However, additional clarification provided to RIG/Pretoria on June 26, 2006
showed that the Mission included the individual Implementation Letters related to the
host country contracts in its audit inventories. We determined that this finding and the
particular recommendation is no longer valid. Therefore, the final report has seven
recommendations. References to Recommendation Nos. 6 and 7 below correspond to
Recommendations Nos. 7 and 8 in the draft audit report as well as the USAID/Kenya
comments found in Appendix II to this report.

USAID/Kenya agreed with Recommendation Nos. 2, 4, 5, 6 and 7, and disagreed with
Recommendation No. 1. The Mission provided agreement, corrective action plans, and
target completion dates for Recommendation No. 1 and they provided a draft Mission
Order for Recommendation Nos. 4 and 6. The Mission neither agreed nor disagreed
with Recommendation No. 3, but amended its Mission Order regarding audit
management dated May 31, 2006 showing detailed steps involved in the USAID
financial audit process. For Recommendation No. 7, the Mission agreed to submit all
host country contract audits to RIG/Pretoria. For Recommendation Nos. 1, 3, 4, 6 and 7,
management decision has been reached.

USAID/Kenya agreed and provided corrective action plans for Recommendation Nos. 2
and 5; however, the Mission did not provide target dates for completion of action.
Therefore a management decision has not been reached. Management decision will be
reached once the Mission provides target dates for submitting delinquent audit reports to
RIG/Pretoria. Final action will be accomplished when USAID/Kenya submits the audit
reports identified in Appendices III and IV to RIG/Pretoria.




                                                                                      11
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria (RIG/Pretoria) performed this audit in
accordance with generally accepted government auditing standards. The audit was
performed at the Regional Inspector General in Pretoria, South Africa from December
20, 2005 though March 24, 2006.

The audit covered financial audit requirements for USAID/Kenya’s awards to non-U.S.-
based recipients during fiscal years 2003, 2004, and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories and audit plans submitted by the Mission for fiscal years 2003-2005,
RIG/Pretoria’s Audit Management Database and archives, and correspondence from the
Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because we believe that the
responsibility for preparing award inventories rests with the Mission’s Audit Management
Officer, who should have the technical capacity to prepare reliable award inventories.
The primary focus of our audit was the development and execution of the annual audit
plans from those award inventories. Thus, with few exceptions, we limited our
procedures to determine whether data in the award inventories were properly used to
develop the audit plans and whether those audit plans were executed in an acceptable
and timely manner. We recognize the limitations of our reliance on the accuracy and
completeness of the award inventories, and hereby disclose this in the audit report—the
primary limitation being that all awards requiring a financial audit may not have been
included in the Mission’s award inventories. Further, expiration dates and total amounts
of awards in inventories may not have been accurate.

With regard to internal controls, we assessed:

•   Award inventories.
•   Audit plans.
•   Mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed the annual audit plans
and award inventories for fiscal years 2003-2005 submitted to RIG/Pretoria for
USAID/Kenya. We compared audit reports actually submitted to RIG/Pretoria to planned
audits listed in the Mission’s audit plans in order to determine the timeliness of the
submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards that were not subject to
an annual audit prior to the program completion date. The audit also included a review
of correspondence between RIG/Pretoria and the Mission regarding award inventories

                                                                                     12
                                                                            APPENDIX I


and annual audit plans. We also requested additional information from the Mission
when required.

For materiality thresholds, we considered the following to be material:

•   Timeliness of submission of audit reports – if the number of acceptable audit reports
    submitted after the nine month due date was greater than 10 percent of the number
    of planned audits, we considered the lack of timeliness to be material.

•   Delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material.

•   Completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possessed most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results could be handled via e-mail or telephone.




                                                                                      13
                                                                                   APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM

To:                  Jay Rollins, RIG/Pretoria
                     100 Totius Street
                     Groenkloof x5
                     0027, Pretoria
                     South Africa

From:                Stephen M. Haykin, Mission Director, USAID/Kenya


Date:                May 22, 2006

Subject:             Audit of USAID/Kenya’s Compliance with Financial Audit
                     Requirements Regarding Foreign Recipients (Audit Report No. 4-
                     615-06-xxx-P)

In response to your transmittal memo dated April 19, the Kenya Mission takes
this opportunity to thank RIG/Pretoria for conducting this audit and for
highlighting areas for improvement. In addition, we appreciate this opportunity to
comment on the audit findings although, in the absence of an exit conference, we
would have expected a preliminary draft report for comment prior to issuance of
the draft report. We are hopeful that RIG/Pretoria will substantially modify some
findings/recommendations and even close others at the draft report level based
on the specific comments and supporting evidence USAID/Kenya has provided
for each of the eight recommendations as discussed below.

Recommendation No.1: We recommend that USAID/Kenya develop and
implement an audit tracking system to monitor the recipient financial audit
process to ensure timely submission of reports to RIG/Pretoria. This system
should at a minimum, include controls to ensure that:




U.S. Agency for International Development
USAID Kenya
P.O. BOX 629                                Tel:254-20-862400/02        USAID Kenya
Village Market 00621                        Fax 254-20-860870/949       UNIT 64102
Nairobi, Kenya                              http://www.usaidkenya.org   APO AE 09831-4102


                                                                                            14
                                                                                   APPENDIX II




         Appropriate timing targets and milestones are set for each audit in the
          Mission’s current audit plan;
         Audit instructions are sent to recipients prior to the recipient’s fiscal year-
          end requesting them to initiate the procurement process for the audit;
         Periodic follow-up is performed to determine the implementation status of
          all planned audits; and Corrective actions are taken and documented for
          audits that are not progressing as planned.

USAID/Kenya’s comments: The Mission does not agree with the finding that it
does not have an audit tracking system. Please see the Mission’s tracking
system that it has been in use (Attachment 1).

However, the Mission agrees that its current tracking system can be improved to
more effectively ensure the timely performance and completion of financial
audits. In this regard and in response to the recommendation’s three sub-
sections:

    The Controller’s Office has instituted additional controls with timing targets
     and milestones for each audit to be part of the Mission’s audit monitoring plan
     (see Attachment 2).

    Starting this month, as appropriate, the Mission will send out its audit
     notification letter (see Attachment 3) to all organizations in the audit plan
     three months before their respective financial year-ends to ensure timely
     initiation of the audit process.

    The Mission will continue to use the quarterly financial activity and the audit
     performance tracking reports showing the status of audits. In addition, review
     of audit status will be included in agendas for the weekly SO staff meetings
     and monthly SO meetings with the Mission Director; Financial Analysts will
     take the lead towards this end. Further, the Controller’s Office will document
     and share the results of these meetings both internally and with partners, and
     maintain a permanent record in the audit files.

Recommendation No.2: We recommend that USAID/Kenya obtain and submit
all delinquent audit reports to RIG/Pretoria.




U.S. Agency for International Development
USAID Kenya
P.O. BOX 629                                Tel:254-20-862400/02        USAID Kenya
Village Market 00621                        Fax 254-20-860870/949       UNIT 64102
Nairobi, Kenya                              http://www.usaidkenya.org   APO AE 09831-4102


                                                                                            15
                                                                                   APPENDIX II




USAID/Kenya’s comments: USAID/Kenya is following up on the outstanding
audits (Appendix III of the Audit report No. 4-615-06-XXX-P) will submit the
reports as soon as they are ready.

Recommendation No.3: We recommend that USAID/Kenya develop and
implement a system to ensure that the Mission reviews, approves and maintains
a copy of an audit agreement containing a standard statement of work that
incorporates USAID’s audit requirements for every recipient audit.

USAID/Kenya’s comments: This system has been in place since the Mission
received from RIG/Pretoria a schedule (see Attachment 4) showing the detailed
steps involved in the USAID financial audit process. Therefore, the Mission has
on file copies of audit agreements containing standard statements of work for all
audits since that time, including Egerton University, Kenya Agricultural Research
Institute, ICROSS, Institute of Civic Affairs and Development, etc). In addition,
starting immediately, the Mission will forward to RIG/Pretoria copies of SOWs
and Mission approvals together with the respective audit reports as they are
completed.

Recommendation No.4: We recommend that USAID/Kenya amend its Mission
Order dated May 1, 2002 to ensure that closeout audits of expiring awards in
excess of $500,000 are included in future audit plans and performed as required.

USAID/Kenya’s comments: The Mission agrees with this recommendation and
has already incorporated the recommended change in a revised Mission Order
that awaiting the approval by the USAID/Kenya and USAID/EA Directors (see
Attachment 5).

Recommendation No.5: We recommend that USAID/Kenya obtain and submit
audit reports for all expired awards requiring closeout audits.

USAID/Kenya’s comments: The Mission agrees with this recommendation and
has initiated actions to obtain and submit audit reports for the expired-awards
requiring closeout audits (see Attachment 6). As further shown in Attachment 6,
USAID/Kenya has identified awards that are already on its FY 2006 Audit Plan
and those that do not require closeout audits.




U.S. Agency for International Development
USAID Kenya
P.O. BOX 629                                Tel:254-20-862400/02        USAID Kenya
Village Market 00621                        Fax 254-20-860870/949       UNIT 64102
Nairobi, Kenya                              http://www.usaidkenya.org   APO AE 09831-4102


                                                                                            16
                                                                                   APPENDIX II




Recommendation No.6: We recommend that USAID/Kenya include all
identified host country contracts in its award inventory for fiscal year 2006.

USAID/Kenya’s comments: 4 The Mission disagrees with this recommendation.
The agreements included in the audit schedule (Appendix V) are Development
Assistance Grant Agreements (DAGAs; variously called SOAGS) which are
bilateral agreements. The GOK activities funded by USAID/Kenya are then
funded under the DAGAs. Where the recipients under the DAGAs spent more
than US$300,000 they would be subject to RCAs. These activities do appear on
the USIAD/Kenya’s Audit Inventory and Audit Plan (as appropriate). These
activities are the auditable entities and not the DAGAs. In addition, the Mission
would like to clarify that these are not host country contracts because if where
the GOK is involved in contracting, the Mission takes active part in the process
and in most cases makes payments direct to the contractors. USAID/Kenya is
carrying several procurement assessments of Government of Kenya Agencies
before it formally enters into Host Country Contracts.

Recommendation No.7: We recommend that USAID/Kenya amend its Mission
Order dated May 1, 2002 to provide procedures for including host country
contracts in award inventories and annual audit plans, as appropriate.

USAID/Kenya’s comments: The Mission agrees with this recommendation and
has already incorporated the recommended change in a revised Mission Order
that is awaiting the approvals the USAID/Kenya and USIAD/EA Mission Directors
(see attachment 5). All future Host-Country audits are provided for under the
revised Mission Order.

Recommendation No.8: We recommend that USAID/Kenya obtain and submit
audits for the two host country contracts that expended in excess of $300,000 in
one fiscal year as required in Section 3.9 of the Country Contracting Handbook.

USAID/Kenya’s comments: USAID/Kenya would like to clarify that none of the
instruments listed in the audit report under Host Country audits (Appendix V) are
directly subject to audit as required in Section 3.9 of the Country Contracting
4
  Additional clarification from USAID/Kenya provided justification for removal of Recommendation
No. 6. Therefore, the Mission’s response for Recommendation Nos. 7 and 8, respectively applies
to Recommendation Nos. 6 and 7 of this report.



U.S. Agency for International Development
USAID Kenya
P.O. BOX 629                                Tel:254-20-862400/02        USAID Kenya
Village Market 00621                        Fax 254-20-860870/949       UNIT 64102
Nairobi, Kenya                              http://www.usaidkenya.org   APO AE 09831-4102


                                                                                             17
                                                                                   APPENDIX II




Handbook. In addition, we were unable to identify the two instruments referred
to in this recommendation to enable us make a more response as to whether the
audit process or plans are under way to perform the audits within the due dates.

Please feel free to contact us for any further information or clarification.




U.S. Agency for International Development
USAID Kenya
P.O. BOX 629                                Tel:254-20-862400/02        USAID Kenya
Village Market 00621                        Fax 254-20-860870/949       UNIT 64102
Nairobi, Kenya                              http://www.usaidkenya.org   APO AE 09831-4102


                                                                                            18
                                                                                 APPENDIX III



    LIST OF DELINQUENT AUDITS
     AS OF DECEMBER 31, 2005

                                                                                     # of Days
            Award Number 5          Recipient’s      Total         Estimated          Between
                                    Fiscal Year    Amount of        Annual          Audit Report
                                        End        Award ($)      Expenditures       Due Date
                                                                       ($)          and 12/31/05

    1   Various Comm. Docs            6/30/2002      8,500,000          1,008,154          1,005
    2   Various Comm. Docs           12/31/2001        689,359             44,170          1,187
    3   CO623-C-00-00-00136           9/30/2002      1,134,923            409,919            914
        GR623-A-00-00-00097 and
 4      GR623-A-00-99-00097           9/30/2003      3,779,737                 -             548
 5      Various                       6/30/2003      3,765,355           500,500             639
 6      PIL615-005-003                6/30/2003      1,000,000           400,000             639
 7      GR623-A-00-01-00004           3/31/2003        466,140           332,423             731
 8      PIL615-0268-32                6/30/2003      3,173,820           550,000             639
 9      PIL615-0268-32,               6/30/2004      5,168,766           795,934             274
10      PIL615-0268-041               6/30/2003        594,400                 -             639
11      PIL615-0268-041& 7-003        6/30/2004        979,790           348,807             274
12      Various                       6/30/2004      3,765,355           210,253             274
13      GR623-A-00-00-00097 and
        GR623-A-00-99-00097           6/30/2004      3,779,737           900,000             274




5
    Award numbers have been presented as they appear in the Mission’ award inventories.


                                                                                           19
                                                                                        APPENDIX IV



      LIST OF EXPIRED AWARDS
    REQUIRING CLOSEOUT AUDITS
           Award Number 6             Award        Total Amount        # of Days Between
                                     Expiration      of Award           Audit Report Due
                                       Date          (in US $)         Date and 12/31/05

 1   CO623-A-00-97-00039             12/31/2002            962,857                       822
 2   PIL615-0268-024                  6/30/2003          1,351,837                       639
 3   COG623-0263-A-00-7015            6/30/2001          1,625,169                     1,370
 4   PIL615-0268-25                   6/30/2003            794,795                       639
 5   GR623-A-00-01-00132             12/31/2003            680,000                       457
 6   GR623-G-00-99-00044             12/31/2001            876,000                     1,187
 7   GR623-G-00-99-00036             12/31/2002          1,400,000                       822
 8   COAG623-A-00-03-00041           12/31/2005            750,000                     -274 7
 9   GR623-G-00-00-00155             12/31/2003            523,390                       457
10   CA623-A-00-03-00038             12/31/2004            999,808                        91
11   GR623-A-00-01-00132             12/31/2004            680,000                        91
12   PIL615-0268-024, 047             6/30/2004          1,351,837                       274
     GR623-G-00-99-00293 and
13   GR623-G-00-01-00127             12/31/2004            814,859                         91
14   IL-615-0006-005                  6/30/2005            715,697                       -907
15   IL615-0006-004                  12/31/2004            622,281                         91
16   IL615-003-003                   12/31/2004          1,140,000                         91
                Total                                   15,288,530




6
 Award numbers have been presented as they appear in the Mission’ award inventories.
7
 These audit reports were not yet due as of December 31, 2005, however, they should be included in the
Mission’s respective audit plan.
                                                                                                     20
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
